Supreme Court, U.S.
FILED

SEP 1 S 2020
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH

BELARDE

GARCIA

— PETITIONER

vs.
DEAN

BORDERS, Warden

— RESPONDENT(S)

ON PETITION FOR WRIT OF CERTIORARI FROM
DENIAL OF HABEAS CORPUS PETITION BY THE
CALIFORNIA SUPREME COURT:

PETITION FOR WRIT OF CERTIORARI

Joseph

Belarde

Garcia

H-01695

P.

O.

Box

3466

Corcoran, California,

93212

QUESTION(S) PRESENTED

CAN A STATE PAROLE BOARD COMMIT A FATAL ERROR BY THE
REFUSAL TO ENTERTAIN FAVORABLE EVIDENCE OF THE STATE
PRISONER FOR HIS SUITABILITY TO BE RELEASED UPON
PAROLE?

DOES THE DUE PROCESS OF LAW CLAUSE OF THE FOURTEENTH
AMENDMENT MANDATE A "FAIR PROCESS" TO A STATE PRISONER
IN SUITABILITY HEARING FOR RELEASE ON PAROLE?

DOES THE EQUAL PROTECTION OF LAW CLAUSE OF THE FOURTEENTH
AMENDMENT MANDATE THAT ALL STATE PRISONERS

i

BE TREATED

FAIRLY WITH EVEN-HANDED JUSTICE IN SUITABILITY HEARING
FOR RELEASE ON PAROLE?

CAN A STATE SUPREME COURT DENY A PETITION FOR WRIT OF
HABEAS CORPUS, WHEN A LAW ENFORCEMENT INVESTIGATOR
EDITED AND FABRICATED AN "IMPACT STATEMENT" OF ALLEGED
VICTIM?

//

//

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
California Attorney General Office
300 South Spring Street
Suite No. 1702
Los Angeles, California

90013

RELATED CASES

None To Date

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-13

REASONS FOR GRANTING THE WRIT

14-15

CONCLUSION

16

INDEX TO APPENDICES

Appendix

A

California Supreme Court
Denial of Petition For
Writ of Habeas Corpus,
Dated: June 10, 2020.

Appendix

B

California Court of Appeal,
Second Appellate District,
Division six, Denial of
Petition For Writ of Habeas
Corpus, Dated: October 22,
2019.

Appendix

C

Mr. DeJon R. Lewis, Counsel
For Petitioner At Time of
Board Of Parole Hearings,
Suitibility For Parole
Proceedings, Identifying
Errors Of Constitutional
Magnitude of The Ten Year
Denial For Parole Hearing.

Appendix

D

Excerpts Of Transcript Of
Board Of Parole Hearings,
"Impact Statement" Provided
State Prosecutor's Retired
Investigator, His Admission
Editing The Statements.
i.

Table

Of

Authorities

CASES

Pages
United

States

Supreme

Court

Opinions

Brecht vs. Abrahamson,
(1993) 507 U.S. 619, 622-628

11

Dickerson vs. United States,
(2000) 530 U.S. 428, 439, n. 3

12

Estelle vs. McGuire,
(1991) 502 U.S. 62

11

Greenholtz vs. Inmates' of Neb. Penal & Correctional
Complex,
(1979) 442 U.S. 1

12

In re Murchison,
(1955) 349 U.S. 133, 136

12

Morrissey vs. Brewer,
(1972) 408 U.S. 171

11,

12

Rose vs. Clark,
(1986) 478 U.S. 570

11

Withrow vs. Larkin,
(1975) 421 U.S. 35, 47

12

Withrow vs. Williams,
(1993) 507 U.S. 680, 715

12

United States Court Of Appeals
For The Ninth Circuit

United States vs. Comito,
(9th Cir. 1999) 177 F.3d 1161, 1170

12

United States vs. Hall,
(9th Cir. 2005) 419 F.3d 980, 987

12

United States vs. Martin,
(9th Cir. 1993) 984 F.2d 308, 313

12

ii.

Table

Of

Authorities

CASES

Pages
California

Court

Of

Appeals

Opinions

In re Cornel,
(2012) 210 Cal.App.4th 1218

11

In re Jackson,
(2011) 193 Cal.App.4th 1376, 1391

11

In re McDonald,
(2010) 189 Cal.App. 4th 1008, 1023

11

United

Fourteenth

i

States

Amendment,

3,
United

28 U.S.C. Section

States

3043,

penal

(3)(b)(1),

passim

Codes

1237, Subdivision (a),
California

Section

Constitution

3
Code

5

//

//

iii.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__h__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the

California Snp-rpnua

appears at Appendix__ h__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1.

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ______________________
[ ] No petition for rehearing was timely filed in my ease.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was Qfi/i o/?n
A copy of that decision appears at Appendix A
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fourteenth Amendment To United States
Constitution, Due Process & Equal
Protecion Of Law Clauses

28 U.S.C. Section 1257 (a)

3.

STATEMENT OF THE CASE

On September 16, 2015, petitioner, Joseph Belarde Garcia,
before Board of Parole Hearings.
Appearance

appeared

1/

was based upon the new created "Elderly Release,"

for elderly state prisoners.

Petitioner had retained for the purpose

of possible early parole, counsel, Mr. DeJon R. Lewis, Esq., Attorney
At Law, 674 County Square Drive, Suite No. 204, Ventura, California,
93003.
Commissioners presiding over the hearing on behalf of the B.P.H • /
were Commissioner Mr. Brian Roberts and Deputy Commissioner, Mr. Nga
Lam.

Early parole for "elderly state prisoners"

came about from the

"Three Judge Panel" in Plata vs. Davis, Northern District of California,
United States District Court, order dated February 10, 2014.
Commissioners

Roberts & Lam, denied parole consideration for ten

(10) years based upon petitioner's assertion that he was "factually"
innocent

of the crime of which he was convicted,

lacked "insight" and remorse for his conduct.

Claiming that he

Further, an expert

appointed by the State of California, wrote an adverse opinion/analysis
of petitioner based upon the same fact, he claimed innocence.
However, another expert had interviewed petitioner numerous times
and wrote a highly favorable report and/or opinion/analysis of the
petitioner's mental state of mind and his risk to society.

B.P.H • /

commissioner's refused to entertain anything

regarding factual innocence

to the

At this time petitioner

petitioner's criminal culpability.

had provided the published book entitled

"Framed" written by Miss Lori

FOOTNOTE FL
Petitioner began the statement of the case from the denial of early
parole. Board of Parole Hearings will hereafter be referred to as B.P.H.
4.

Carangelo, which amplify "Factual Claim of Innocence."

Petitioner's

counsel, filed a letter for review of B.P.H.'s decision denying a
parole hearing for ten (10) years, see Appendix c .

Even counsel,

has articulated the fact that petitioner made numerous proclamations
to his innocence

and was unjustly and unconstitutionally assessed

in a punitive nature, i.e., denial for ten years, contrary to rights
secured by Fourteenth Amendment to United States Constitution. (See:
c < second paragraph.)

Appendix

Counsel additionally asserted violations of recently enacted
Statute (California's), § 3043 (3)(b)(l), i. e *
of counsel objections were denied,
of a ten (10) year denial.

t

"Marcy's Law."

Penal
All

Even counsel has never heard

The renown, "Charles Manson" was only

denied to return to B.P.H. for three (3) years.
Lower state appellate court rendered an unreasonable decision in
light of the evidence articulated in state petition for writ of habeas
corpus.

In San Luis Obispo County there were a rash of unsolved rapes

and burlaries which terrorized the communities of San Luis Obispo
County.

Three (3) females victims' positively identified a male

suspect, however, DNA evidence cleared that suspect,

A composite

police sketch of suspect demonstrates that an "African-American" male
committed the criminal acts.

This composite drawing has no

resemblance of petitioner whatsoever.

(See: Framed, at pg.

24.)

A brief explanation regarding petitioner's factual innocence is
articulated in order for this Honorable Court to ascertain why such
innocence was relavant and constitutional to be submitted with out
being assessed punitive punishment.
Beverly

Joan

Brian

5.

As duly noted from official police reports/records/ reporting
police officer stated emphatically that no criminal act occurred.
And that Brian was not mentally compentent, i.e • / mentally ill. (See:
Framed, at pg. 25, fourth paragraph.)

Petitioner was convicted

of

criminal acts committed to Beverly Brian.
Gloria

Johnson

Criminal charges were dismissed based upon a failure to identify
petitioner.

M.O. was identical to other criminal acts committed to

other victims.
Stacia

(Framed, at pg. 25,

Michele

last paragraph.)

Deane

Deane described the perpetrator as a white male, approximate twentyeight (28) years-old.

Five (5') foot tall and weighed one-hundred-

fourty (140Lbs.) pounds.

Ironically petitioner presented proof that

he was in the San Luis County Jail at the time of this criminal act
was committed.

Additionally, petitioner is a "Native-American" and

is six foot & one inch (6'1") tall.
Carrie

2/

Dorgan

At approximately 3:00pm in Los Osos, California, a male wearing
a ski mask forced his way into her residence, pushed her into her bed­
room, but did not rape her.
Dorgan identified a. man

This crime occurred on September 9, 1989.

''Terry11 as her attacker.

On September 6, 1989, petitioner was admitted to Twin cities
ih-Atascadero with an ankle injury and petitioner was on crutches at
time of alleged incident.

Phone records provided proof that petitioner

was at his work place at exact time criminal act was committed.
Framed, at pgs. 26-27.)
FOOTNOTE #2
‘ ‘
'
Defense counsel(s) are to blame for many of the petitioner's
convictions due to failure to investigate.
6.

(See:

Tyra

Dawn

Wittmeyer

On September 17, 1989, Wittmeyer was raped by a white male, but
was dark complected, was seventeen to twenty (17 to 20) years-old.
Petitioner was fourty-one (41) years-old at time of this alleged
criminal act.
Tyra's mother inform the police it was Steve who had raped her
daughter.

Tyra testified that man who raped her was not the

petitioner.

Police witheld this police report which this information

was documented upon.
Jacqueline

(Framed, at pgs. 27-28.)

Brooks

On October 11, 1989, at approximately 4:00pm Brooks was attacked
by a male, light skinned "African-American" who had a southern
accent.
old.

The man was approximately thirty to fourty (30 to 40) years-

A composite drawing by police artist depicted a black male.
Brook's mother, Jan Brooks identified a police officer as

man who sexually assaulted her daughter.

Semen sample, hair & blood

samples were all negative in regards to petitioner,
sample for ethnicity was tainted.
Tracey

Denise

the

The control

(Framed, at pg. 29.)

Archer

On October 12, 1989, at approximately 3:20pm in San Luis Obispo,
a hispanic male walked into her residence.

Hispanic

male was about

twenty (20) years-old, having no tattoos and was wearing a ski mask.
Archer originally identified another suspect from a photo lineup
(six-pack), however, pointed to petitioner's picture and stated "that
he was chubby in the fact like him, but prepetrator was much younger
than petitioner,
by victim, i.e •

i

Again, defense counsel missed a critical statement
"A young Mexican guy."

report.)
7.

(Documented in police

Petitioner was meeting with a client at the time of this criminal
activity.

(Framed, at pgs. 29-30.)

The list goes on and on,
Alleman; Chatherine T. Pinard.

i.e • / Cheryl Ann Picco; Mickle J.
(Framed, at pgs. 30-33.)

There can

be no doubt whatsoever, that no "one person" committed these criminal
acts,

identifications are far too diverse.

And for the B.P.H. to

hold petitioner for another ten (10) years because his claims of
innocence violated Due Process and Equal Protection of the Law.

(See:

Fourteenth Amendment to United States Constitution.)
PNA

EVIDENCE

DESTROYED BY SAN LUIS OBISPO COUNTY DISTRICT

ATTORNEY OFFICE:

As soon as counsel was appointed to represent petitioner for
purpose of having DNA tested, what was once there when motion was
filed has now disappeared and/or been destroyed maliciously and thus
intentionally.

(Framed, at pg. 70, fifth paragraph to pg. 71, third

paragraph..)
The population statistics that the alleged expert for the State
testified too, were erroneous and mislead the jurors also.

Because

of the length of time since the time of Direct Review, all trial
transcripts were accidently lost when a computer crashed,
been scaned and up loaded.

They had

Once DNA was re-tested under the modern

day methods, petitioner would sought an expert to verify that DNA
was not his as alleged by prosecution.
B.P.H.'S REFUSAL TO ENTERTAIN ANY FAVORABLE OPINIONS/ANALYSIS
OF EXPERT ON PETITIONER'S BEHALF:
Dr Larmer, a female clinician, wrote bias report based upon
Petitioner's "factual claim of innocence."

8.

This was clinician who

was appointed just recently before the parole hearing'itself.

The

other clincian had interviewed petitioner over a period of months
and opined that he posed little if no risk if released back into
society/ categorized as No. "1" i.e.,

very little chance of failure

to abide by mandates of parole.
The B.P.H.'s commissioners only would utilize adverse facts,
and ignored favorable reports, opinions/analysis, etc.

This type

of conduct is contary to petitioner’s rights secured by Due Process
and Equal Protection Clauses of the Fourteenth Amendment to United
States Constitution.

Additionally, this conduct is contrary to the

clearly established Federal Law, announced by opinion by this
Honorable Court, as will be delveloped infra herein.
ALLEGED VICTIM'S IMPACT STATEMENTS HAVE BEEN EDITED AND PLAIN
FABRICATED:
Presiding Commissioner, Roberts, requests victim's impact state­
ments. (Appendix D , at pgs. 133, In. 11 to pg. 134, In. 21.)

Mr.

J. Miller, retired San Luis County District Office Investigator,
openly admitted that he edited some of the victim's statements.

No

objection by defense counsel.
Mr. Miller claims to have spoken to victims' Tyra, Jackie, Cathy
and Peg Stacie.

As previously documented and evidence adduced from

jury trial, each one of these alleged victims stated that petitioner
was not person who committed the criminal acts to them,
any of them be afraid of petitioner?

Why would

Entire statements by these

particular victims' were fabricated by the investigator.
The entire proceeding for consideration for parole was so
tainted that it was impossible for .the petitioner to receive -a fair
9.

and impartial hearing for consideration of release on parole.

The

California Supreme Court's opinion denying habeas corpus relief is
unreasonable in light of the evidence and factual predicate alleged
in the petition for writ of habeas corpus.

Further, the manner of

which the B.P.H. conducted the proceeding for suitibility for
release on parole conflicts with the Constitution of the United
States and established Federal Law.

(Harrington vs. Richter,

(2011)

562 U.S. 86, 97-98.)
No reasonable jurist of reason would have decided the habeas
corpus petition as the California Supreme Court has rendered.
Appendix A.)

(See:

No jurist of reason would have summarily rejected such

serious contentions and violations of Due Process and Equal Protection
of the Law as the California Court of Appeal, Second Appellate
District, Division’ Six.

Petitioner complied with all the procedural

requirements of habeas corpus law and rules through the state court
process.

(Appendix

B.)

Even counsel, Mr. Lewis was appalled at the ten year denial
for return for parole consideration.

(Appendix

C, at pg. 2, fourth

paragraph.)
No "Fair Process" can be entertained in any hearing where all
favorable evidence is rejected and only adverse evidence admitted.
This type of conduct offends notions of fundamental fairness and
right to a fair hearing.
This Honorable Court must ask itself if a liberty interest
existed at time of B.P.H. proceeding and if so, whether or not the
procedure employed by B.P.H. was constitutionally sufficient,

And

if petitioner's constitutional rights to Due Process and Equal
Protection of Law were so restricted that the result of the B.P.H.
10.

can not be deemed reliable in light of the evidence that was clearly
suppressed by the B.P.H.

(Brecht vs. Abrahamson, (1993) 507 U.S.

619, 622-628.)
Although there is no constitutional right and/or absolute right
to be released on parole.

The right to parole is a state created

right and accordingly the state created right must be fair and not
caprice and arbitrary in its decision making process.

The B.P.H.

can not run afoul of the Equal Protection and Due Process of Law
Clauses to do so.

(Fourteenth Amendment to United States

Constitution.) [Cf: Estelle vs. McGuire, (1991) 502 U.S. 62.]
The State of California Courts

have ruled that the B.P.H., can

not punatively assess a potential parolee for his claims of factual
innocence.

(E.g

• t

In re Cornel,

(2012) 210 Cal.App.4th 1218, i . e •

t

accord, In re McDonald, supra, 189 Cal.App.4th at pg. 1023; In re
Jackson, (2011) 193 Cal.App.4th 1376, 1391.)
Morrissey vs. Brewer, (1972) 408 U.S. 471, opinion has defined
the minimum constitutional due process of law rights for state
prisoners' regarding "procedural protections."
Again, the mandate not to be punitively assessed for proclaiming
one's innocence, is another state created right, that~was capricely
and arbitrarily deprived to petitioner.

Morrissey vs. Brewer, 408

U.S. 471, and its prodigy has condemned such unconstitutional actions.
When state actors' violate their own rules & procedures, that
type of conduct can give rise to a Federal Constitutional dimension.
(Rose vs. Clark, (1986) 478 U.S. 570.)
A potential parolee has a constitutional right to impartial
arbiter, thus due process of law entitled petitioner to a neutral
11.

and detached arbiter.

(Morrissey vs. Brewer, supra, 408

U.S. at

pg. 488, i.e., accord, Withrow vs. Larkin, (1975) 421 U. S. 35, 47;
In re Murchison, (1955) 349 U.S. 133, 136.)
Petitioner had a constitutional right to present evidence of the
other female clinician who have conducted interviews with him over
a period of months consisting of hundred of hours, and the B.P.H.
commissioners' refused to even

consider the opinion/analysis of

that expert who placed at lowest point for committing another criminal
act on parole and deemed him no danger to society.
Additionally, petitioner nor his counsel was able to question
and/or cross-examine the adverse writer of the unfavorable opinion/
analysis.

(United States vs. Comito, (9th Cir. 1999) 177 F.3d 1161,

1170, i.e., accord, United States vs. Hall, (9th Cir. 2005) 419 F.3d
980, 987; United States vs. Martin,
313. )

(9th Cir. 1993) 984 F.2d 308,

Meaningful evidence of other female clinician was completely

ignored, and only bias opinion/analysis was relied upon based on
petitioner's factual claim of innocence.

Both Commissioner's were

equally bias because of proclamation of innocence.
B.P.H.'s actions are contrary to clearly established Federal Law
announced by opinion by this Honorable Court, i.e
Inmates' of Neb. Penal & Corrections Complex,
Dickerson vs. United States,

♦

/

Greenholtz vs.

(1979) 442 U.S. 1;

(2000) 530 U.S. 428, 439, n.3; Withrow

vs. Williams, (1993) 507 U.S. 680,

715.)

' “--i ''

Due Process and Equal Protection of the Law demand "fair process"
in parole proceedings.

Further, the California Department of

Corrections & Rehabilitation and B.P.H •

t

have retaliated against

some prisoners because of the order to release prisoners, and~have
12.

deprived many prisoners' release as "Three Judge Panel" has'ordered.
Many new release standards and new laws themselves have accomplished
little if not nothing to reduce prison population.

"Proposition

57" is a prime example, approved by the electorate in 2016, C.D.C.
& R., is still fighting over releases and have lost at virtually
every state court level.

The California Court of Appeal, Third

Appellate District, Sacramento, California, has awarded attorney
fees to counsel representing prisoners for wasting the Court's time
and resources.
B.P.H's message to Federal Courts

regarding "elderly

release" is by imposing outrageous ten (10) year denials.
Petitioner's parole

prisoners
3/

proceeding was so fatally infected witherror

that even the "some evidence" standard relied upon by Courts' to
uphold a denial of release on parole, can not be supported herein.

//

//

FOOTNOTE#3
All above-mentioned documents, transcripts will be provided upon
request. The numerous court (state) opinions mentioned in regards
to Proposition 57, will be provided upon request that were opined
adversely to California Department of Corrections & Rehabilitations,
i.e., their erroneous interpretation of what the "Voters f tr
approved
by their vote of approval in the election of 2016.

13.

REASONS FOR GRANTING THE PETITION

Since the creation of the "Three Judge Panel" from the Plata vs.
Davis, United States District Court, Northern District of California.
California Department of Corrections & Rehabilitation, and California's
Peace Officers Association, i.e., Correctional Officers, have done
everything in their power to thwart the Federal Court's mandates and
orders.

A few examples will suffice below.

4/

At Centinela State Prison, all state prisoners' were moved from
"C" section on all facilities, and

this was accomplished in order

to reduce the prison population and provide constitutional housing,
affording each prisoner with adequate space for living in each cell.
However, all prisoners' are still double celled, completely defeating
purpose of prisoner reduction,

All "C" sections are remaing empty,

with no prisoners' in the cells
prisoners.'

instead of single celling'for the

This type of conduct completely defeats

the "Three

Judge Panel" mandates and orders.
Honorable Judge of the District Court, Theodore Henderson, even
openly stated himself that he allowed State of California, C.D.C. &
R. and CPOA, far too much leadway and time to correct the over-crowded
and unconstitutional housing of state prisoners.

Even today San

Quentin State Prison, along with the Governor, Mr. Gavin

Newsom, told

newspaper reporters' and television personnel that 1,000 state
prisoners would be released from San Quentin due to COVID-19 Pandemic
and the outbreak, to date only approximate 300-400 have actually been
released.
FOOTNOTE #4
Hereafter, California Department of Corrections & Rehabilitation
will be referred to as C.D.C. & R., and California Peace Officers
CONTINUED ON NEXT PAGE
14.

In 2011, when C.D.C. & R • / was denied review by virtue of a
petition for writ of certiorari, by this Honorable Court, they came
up with a four (4)year plan to reduce the

prison population and to

return all out-of-state California Prisoners.

To date "2020" not

all out-of-state prisoners' have been returned to California and
most state prisons have required double celling in cells originally
built for one prisoner.
At one prison,

when Federal personnel were present to inspect

the housing of prisoners, C.D.C & R., and CPOA, hid over one-hundred
(100+) prisoners behind the wall during the inspection,

By placing

them in Vocational area, it appeared that there were a 100+ prisoners'
less on that facility.
Petitioner is asking this Honorable Court to do the right thing
and not to ignore the unlawful and unconstitutional method of denying
parole to petitioner.

It is time to send a firm message to C.D.C.

& R. and CPOA, that Federal Court mandates are going to be enforced
and adhered to.
Normally, state laws are state concerns, however, when a state
administrative tribunal, i.e •

f

B.P.H. violates the Federal Constitution

as herein, it is time for this Honorable Court to take action and
grant review of the ten (10) year denial of return to B.P.H.

//

//

Footnote #4 CONTINUED
Association, will be referred to as CPOA.
15.

CONCLUSION

The petition for a writ of certiorari should be granted.

September

3, 2020

16.

